CREDIT CARD
ACCOUNT
OPENING
DISCLOSURE

PENNSYLVANIA STATE
EMPLOYEES CREDIT UNION
P.O. Box 67012
Harrisburg, PA 17106
800.237.7328 • PSECU.COM

CLASSIC CARD
ALUMNI CLASSIC CARD
This Disclosure is incorporated into and becomes part of Your LOANLINER® Consumer Credit Card Agreement &
Disclosure. Please keep this attached to Your LOANLINER Consumer Credit Card Agreement & Disclosure.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
2.90% Introductory APR until December 31, 2022.
APR for Balance Transfers

9.90%

After that, Your APR will be 9.90%.
APR for Cash Advances

9.90%

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
None

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
None
None
None
None
None
None
None
None
Up to $20.00
None
None

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)." See Your Account Agreement for more
details.
Promotional Period for Introductory APR:
The Introductory APR for balance transfers will apply to transactions posted to Your Account from 01/01/2021 until
12/31/2021. Any existing balances on Pennsylvania State Employees Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.
Billing Rights:
Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Military Lending Act Disclosures:
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

©PSECU Form #3902 1220

03720921-MXC20-C-3-092817 (MXC201-E)

Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account).
Please call us at (800) 237-7328 extension 3846 to receive oral disclosures of the Military Lending Act disclosure
above and a description of the payment obligation.
Other Fees & Disclosures:
Late Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less, if You are 1 or more days late in making a
payment. If Your Account is subject to a Late Payment Fee, the fee will be charged to Your Account when You do not
make the required minimum payment by or within the number of days of the statement Payment Due Date set forth on this
Disclosure.
PIN Replacement Fee:
None.
Rush Fee:
$40.00. If Your Account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged to Your
Account for each rush Card that You request, providing that delivery of the Card is also available by standard mail service,
without paying a fee for delivery.
Unreturned Card Fee:
None.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
The Purchase APR is 9.90% which is a monthly periodic rate of 0.8250%.
The Introductory Balance Transfer APR is 2.90% which is a monthly periodic rate of 0.2417%.
The Balance Transfer APR is 9.90% which is a monthly periodic rate of 0.8250%.
The Cash Advance APR is 9.90% which is a monthly periodic rate of 0.8250%.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03720921-MXC20-C-3-092817 (MXC201-E)

